                                                              Federal Register / Vol. 73, No. 243 / Wednesday, December 17, 2008 / Proposed Rules                                        76575

                                           Social Security Administration, Attn:                   DEPARTMENT OF STATE                                   DEPARTMENT OF HEALTH AND
                                             Reports Clearance Officer, 1333                                                                             HUMAN SERVICES
                                             Annex, 6401 Security Blvd.,                           22 CFR Part 62
                                             Baltimore, MD 21235–0001, Fax                                                                               Office of Inspector General
                                             Number: 410–965–6400, E-mail:                         [Public Notice: 6455]
                                             OPLM.RCO@ssa.gov.                                                                                           42 CFR Part 1001
                                             You can submit comments for up to                     Exchange Visitor Program
                                                                                                                                                         Solicitation of New Safe Harbors and
                                           60 days after the publication of this                   AGENCY:  Department of State.                         Special Fraud Alerts
                                           notice; however, your comments will be
                                           most useful if you send them to SSA                     ACTION: Proposed rule with request for                AGENCY: Office of Inspector General
                                           within 30 days of publication. To                       comment; withdrawal.                                  (OIG), HHS.
                                           receive a copy of the OMB clearance                                                                           ACTION: Notice of intent to develop
                                                                                                   SUMMARY: On December 10, 2008, the
                                           package, contact the SSA Reports                                                                              regulations.
                                                                                                   State Department published in the
                                           Clearance Officer using any of the above
                                                                                                   Federal Register a proposed rule titled               SUMMARY: In accordance with section
                                           contact methods. We prefer to receive
                                                                                                   Exchange Visitor Program. The                         205 of the Health Insurance Portability
                                           comments by e-mail or fax.
                                                                                                   Department amended the General                        and Accountability Act (HIPAA) of
                                           (Catalog of Federal Domestic Assistance                 Provisions of the existing Exchange
                                           Program Nos. 96.001, Social Security-                                                                         1996, this annual notice solicits
                                                                                                   Visitor Program regulations set forth at              proposals and recommendations for
                                           Disability Insurance; 96.002, Social                    22 CFR Part 62. This proposed rule is
                                           Security—Retirement Insurance; 96.004,                                                                        developing new and modifying existing
                                                                                                   being withdrawn because it was                        safe harbor provisions under the Federal
                                           Social Security—Survivors Insurance.)
                                                                                                   submitted prior to a formal significance              anti-kickback statute (section 1128B(b)
                                           List of Subjects in 20 CFR Part 404                     designation being made by OMB. The                    of the Social Security Act), as well as
                                                                                                   proposed rule is withdrawn in its                     developing new OIG Special Fraud
                                             Administrative practice and                           entirety.
                                           procedure; Blind, Disability benefits;                                                                        Alerts.
                                           Old-Age, Survivors, and Disability                      DATES: The proposed rule published at                 DATES: To assure consideration, public
                                           Insurance; Reporting and recordkeeping                  73 FR 75015, December 10, 2008, is                    comments must be delivered to the
                                           requirements; Social Security.                          withdrawn effective December 16, 2008.                address provided below by no later than
                                             Dated: September 18, 2008.                            FOR FURTHER INFORMATION CONTACT:                      5 p.m. on February 17, 2009.
                                           Michael J. Astrue,                                      Michael Cheman, U.S. Department of                    ADDRESSES: In commenting, please refer
                                           Commissioner of Social Security.                        State, Washington, DC 20547, (202)                    to file code OIG–113–N. Because of staff
                                                                                                   312–9605.                                             and resource limitations, we cannot
                                             For the reasons set out in the
                                                                                                   SUPPLEMENTARY INFORMATION:                            accept comments by facsimile (FAX)
                                           preamble, we propose to amend subpart
                                                                                                                                                         transmission.
                                           G of part 404 of chapter III of title 20                Background                                               You may submit comments in one of
                                           of the Code of Federal Regulations as set                                                                     three ways (no duplicates, please):
                                           forth below:                                               On December 10, 2008, the State
                                                                                                   Department published a proposed rule                     1. Electronically. You may submit
                                                                                                   at 73 FR 75015. The rule was intended                 electronic comments on specific
                                           PART 404—FEDERAL OLD-AGE,
                                                                                                   to amend the General Provisions                       recommendations and proposals
                                           SURVIVORS AND DISABILITY
                                                                                                   (Subpart A) of the existing Exchange                  through the Federal eRulemaking Portal
                                           INSURANCE (1950– )
                                                                                                   Visitor Program regulations set forth at              at http://www.regulations.gov.
                                           Subpart G—[Amended]                                     22 CFR part 62 in order to provide                    (Attachments should be in Microsoft
                                                                                                   greater specificity regarding program                 Word, if possible.)
                                             1. The authority citation for subpart G               administration, sponsor obligations and                  2. By regular, express, or overnight
                                           continues to read as follows:                           participant eligibility in the Exchange               mail. You may send written comments
                                              Authority: Secs. 202 (i), (j), (o), (p), and (r),    Visitor Program.                                      to the following address: Office of
                                           205(a), 216(i)(2), 223(b), 228(a), and 702(a)(5)                                                              Inspector General, Department of Health
                                           of the Social Security Act (42 U.S.C. 402 (i),
                                                                                                   Reason for Withdrawal                                 and Human Services, Attention: OIG–
                                           (j), (o), (p), and (r), 405(a), 416(i)(2), 423(b),         This rule was published prior to                   113–N, Room 5541, Cohen Building,
                                           428(a), and 902(a)(5)).                                 submission to OMB for formal                          330 Independence Avenue, SW.,
                                                                                                   significance designation. The proposed                Washington, DC 20201. Please allow
                                              2. Amend § 404.630(c) by revising the                                                                      sufficient time for mailed comments to
                                           first sentence to read as follows:                      rule is withdrawn for OMB review.
                                                                                                   Accordingly, the Department withdraws                 be received before the close of the
                                           § 404.630 Use of date of written statement              the proposed rule ‘‘Exchange Visitor                  comment period.
                                           as filing date.                                         Program’’, Public Notice: 6448, RIN                      3. By hand or courier. If you prefer,
                                           *     *     *     *    *                                1400–AC36.                                            you may deliver, by hand or courier,
                                                                                                      Withdrawal of the proposed rule does               your written comments before the close
                                             (c) The claimant files an application                                                                       of the comment period to Office of
                                           with us on an application form as                       not preclude the Department from
                                                                                                   issuing another rule on the subject                   Inspector General, Department of Health
                                           described in § 404.611, or one is filed                                                                       and Human Services, Cohen Building,
                                           for the claimant by a person described                  matter in the future or committing the
                                                                                                   agency to any future course of action.                330 Independence Avenue, SW.,
                                           in § 404.612, within 60 days after the                                                                        Washington, DC 20201. Because access
pwalker on PROD1PC71 with PROPOSALS




                                           date of a notice we will send advising                    Dated: December 10, 2008.                           to the interior of the Cohen Building is
                                           of the need to file an                                  Michael G. Cheman,                                    not readily available to persons without
                                           application. * * *                                      Deputy Director, Office of Directives                 Federal Government identification,
                                           *     *     *     *    *                                Management, Department of State.                      commenters are encouraged to schedule
                                           [FR Doc. E8–29951 Filed 12–16–08; 8:45 am]              [FR Doc. E8–29784 Filed 12–16–08; 8:45 am]            their delivery with one of our staff
                                           BILLING CODE 4191–02–P                                  BILLING CODE 4710–24–P                                members at (202) 619–1343.


                                      VerDate Aug<31>2005   16:09 Dec 16, 2008   Jkt 217001   PO 00000   Frm 00008   Fmt 4702   Sfmt 4702   E:\FR\FM\17DEP1.SGM   17DEP1
                                           76576             Federal Register / Vol. 73, No. 243 / Wednesday, December 17, 2008 / Proposed Rules

                                              For information on viewing public                    business practices which, although                    within a subject area while, at the same
                                           comments, please see the                                potentially capable of inducing referrals             time, protecting the Federal health care
                                           SUPPLEMENTARY INFORMATION section.                      of business reimbursable under the                    programs and their beneficiaries from
                                           FOR FURTHER INFORMATION CONTACT:                        Federal health care programs, would not               abusive practices.
                                           Marco Villagrana, Department of Health                  be treated as criminal offenses under the
                                                                                                                                                         II. Solicitation of Additional New
                                           & Human Services, Office of Inspector                   anti-kickback statute and would not
                                                                                                   serve as a basis for administrative                   Recommendations and Proposals
                                           General, Office of External Affairs, (202)
                                           401–2206.                                               sanctions. OIG safe harbor provisions                    In accordance with the requirements
                                           SUPPLEMENTARY INFORMATION:                              have been developed ‘‘to limit the reach              of section 205 of Public Law 104–191,
                                              Submitting Comments: We welcome                      of the statute somewhat by permitting                 OIG last published a Federal Register
                                           comments from the public on                             certain non-abusive arrangements, while               solicitation notice for developing new
                                           recommendations for developing new or                   encouraging beneficial and innocuous                  safe harbors and Special Fraud Alerts on
                                           revised safe harbors and Special Fraud                  arrangements’’ (56 FR 35952, July 29,                 December 19, 2007 (72 FR 71868). As
                                           Alerts. Please assist us by referencing                 1991). Health care providers and others               required under section 205, a status
                                           the file code OIG–113–N.                                may voluntarily seek to comply with                   report of the public comments received
                                              Inspection of Public Comments: All                   these provisions so that they have the                in response to that notice is set forth in
                                           comments received before the end of the                 assurance that their business practices               Appendix D to the OIG’s Semiannual
                                           comment period are available for                        will not be subject to liability under the            Report covering the period April 1,
                                           viewing by the public. All comments                     anti-kickback statute or related                      2008, through September 30, 2008.1 OIG
                                           will be posted on http://                               administrative authorities.                           is not seeking additional public
                                           www.regulations.gov as soon as possible                    Existing OIG safe harbors describing               comment on the proposals listed in
                                           after they have been received.                          those practices that are sheltered from               Appendix D at this time. Rather, this
                                           Comments received timely will also be                   liability are codified in 42 CFR 1001.                notice seeks additional
                                           available for public inspection as they                 B. OIG Special Fraud Alerts                           recommendations regarding the
                                           are received at Office of Inspector                                                                           development of proposed or modified
                                           General, Department of Health and                         OIG has also periodically issued                    safe harbor regulations and new Special
                                           Human Services, Cohen Building, 330                     Special Fraud Alerts to give continuing               Fraud Alerts beyond those summarized
                                           Independence Avenue, SW.,                               guidance to health care providers with                in Appendix D to the OIG Semiannual
                                           Washington, DC 20201, Monday                            respect to practices OIG finds                        Report referenced above.
                                           through Friday of each week from 8:30                   potentially fraudulent or abusive. The
                                                                                                   Special Fraud Alerts encourage industry               A. Criteria for Modifying and
                                           a.m. to 4 p.m. To schedule an
                                                                                                   compliance by giving providers                        Establishing Safe Harbor Provisions
                                           appointment to view public comments,
                                           phone (202) 401–2206.                                   guidance that can be applied to their                   In accordance with section 205 of
                                                                                                   own practices. OIG Special Fraud Alerts               HIPAA, we will consider a number of
                                           I. Background                                           are intended for extensive distribution               factors in reviewing proposals for new
                                           A. OIG Safe Harbor Provisions                           directly to the health care provider                  or modified safe harbor provisions, such
                                                                                                   community, as well as to those charged                as the extent to which the proposals
                                             Section 1128B(b) of the Social                        with administering the Federal health
                                           Security Act (the Act) (42 U.S.C. 1320a–                                                                      would affect an increase or decrease
                                                                                                   care programs.                                        in—
                                           7b(b)) provides criminal penalties for                    In developing these Special Fraud
                                           individuals or entities that knowingly                                                                          • Access to health care services,
                                                                                                   Alerts, OIG has relied on a number of
                                           and willfully offer, pay, solicit, or                   sources and has consulted directly with                 • The quality of services,
                                           receive remuneration in order to induce                 experts in the subject field, including                 • Patient freedom of choice among
                                           or reward business reimbursable under                   those within OIG, other agencies of the               health care providers,
                                           the Federal health care programs. The                   Department, other Federal and State                     • Competition among health care
                                           offense is classified as a felony and is                agencies, and those in the health care                providers,
                                           punishable by fines of up to $25,000                    industry.                                               • The cost to Federal health care
                                           and imprisonment for up to 5 years. OIG                                                                       programs,
                                           may also impose civil money penalties,                  C. Section 205 of Public Law 104–191                    • The potential overutilization of the
                                           in accordance with section 1128A(a)(7)                     Section 205 of Public Law 104–191                  health care services, and
                                           of the Act (42 U.S.C. 1320a–7a(a)(7)), or               requires the Department to develop and                  • The ability of health care facilities
                                           exclusion from the Federal health care                  publish an annual notice in the Federal               to provide services in medically
                                           programs, in accordance with section                    Register formally soliciting proposals                underserved areas or to medically
                                           1128(b)(7) of the Act (42 U.S.C. 1320a–                 for modifying existing safe harbors to                underserved populations.
                                           7(b)(7)).                                               the anti-kickback statute and for                       In addition, we will also take into
                                             Since the statute on its face is so                   developing new safe harbors and                       consideration other factors, including,
                                           broad, concern has been expressed for                   Special Fraud Alerts.                                 for example, the existence (or
                                           many years that some relatively                            In developing safe harbors for a                   nonexistence) of any potential financial
                                           innocuous commercial arrangements                       criminal statute, OIG is required to                  benefit to health care professionals or
                                           may be subject to criminal prosecution                  engage in a thorough review of the range              providers that may take into account
                                           or administrative sanction. In response                 of factual circumstances that may fall                their decisions whether to (1) order a
                                           to the above concern, the Medicare and                  within the proposed safe harbor subject               health care item or service or (2) arrange
                                           Medicaid Patient and Program                            area so as to uncover potential                       for a referral of health care items or
pwalker on PROD1PC71 with PROPOSALS




                                           Protection Act of 1987, section 14 of                   opportunities for fraud and abuse. Only               services to a particular practitioner or
                                           Public Law 100–93, specifically                         then can OIG determine, in consultation               provider.
                                           required the development and                            with the Department of Justice, whether
                                           promulgation of regulations, the so-                    it can effectively develop regulatory                   1 The OIG Semiannual Report can be accessed
                                           called ‘‘safe harbor’’ provisions,                      limitations and controls that will permit             through the OIG Web site at http://oig.hhs.gov/
                                           specifying various payment and                          beneficial and innocuous arrangements                 publications/semiannual.asp.



                                      VerDate Aug<31>2005   16:09 Dec 16, 2008   Jkt 217001   PO 00000   Frm 00009   Fmt 4702   Sfmt 4702   E:\FR\FM\17DEP1.SGM   17DEP1
                                                             Federal Register / Vol. 73, No. 243 / Wednesday, December 17, 2008 / Proposed Rules                                            76577

                                           B. Criteria for Developing Special Fraud                SUPPLEMENTARY INFORMATION:     This is a              Federal Communications Commission.
                                           Alerts                                                  synopsis of the Commission’s Notice of                Robert A. Hayne,
                                             In determining whether to issue                       Proposed Rulemaking, MB Docket No.                    Senior Attorney to Allocations, Audio
                                           additional Special Fraud Alerts, we will                08–227, adopted November 26, 2008,                    Division, Media Bureau.
                                           also consider whether, and to what                      and released November 28, 2008. The                   [FR Doc. E8–29919 Filed 12–16–08; 8:45 am]
                                           extent, the practices that would be                     full text of this Commission decision is              BILLING CODE 6712–01–P
                                           identified in a new Special Fraud Alert                 available for inspection and copying
                                           may result in any of the consequences                   during normal business hours in the
                                           set forth above, as well as the volume                  FCC’s Reference Information Center at                 DEPARTMENT OF THE INTERIOR
                                           and frequency of the conduct that                       Portals II, CY–A257, 445 Twelfth Street,
                                           would be identified in the Special Fraud                SW., Washington, DC 20554. This                       Fish and Wildlife Service
                                           Alert.                                                  document may also be purchased from
                                             A detailed explanation of                             the Commission’s duplicating                          50 CFR Part 20
                                           justifications for, or empirical data                   contractors, Best Copy and Printing,
                                           supporting, a suggestion for a safe                     Inc., 445 12th Street, SW., Room CY–                  [FWS–R9–MB–2008–N0303; 91200–1231–
                                           harbor or Special Fraud Alert would be                                                                        9BPP–L2]
                                                                                                   B402, Washington, DC 20554, telephone
                                           helpful and should, if possible, be                     1–800–378–3160 or via e-mail http://
                                           included in any response to this                                                                              Service Regulations Committee
                                                                                                   www.BCPIWEB.com. This document                        Meeting
                                           solicitation.                                           does not contain proposed information
                                             Dated: December 11, 2008.                             collection requirements subject to the                AGENCY: Fish and Wildlife Service,
                                           Daniel R. Levinson,                                     Paperwork Reduction Act of 1995,                      Interior.
                                           Inspector General.                                      Public Law 104–13. In addition,                       ACTION: Notice of meeting.
                                           [FR Doc. E8–29982 Filed 12–16–08; 8:45 am]              therefore, it does not contain any
                                                                                                                                                         SUMMARY: The Fish and Wildlife Service
                                           BILLING CODE 4152–01–P                                  proposed information collection burden
                                                                                                                                                         (hereinafter Service) will conduct an
                                                                                                   ‘‘for small business concerns with fewer              open meeting on January 29, 2009, to
                                                                                                   than 25 employees,’’ pursuant to the                  identify and discuss preliminary issues
                                           FEDERAL COMMUNICATIONS                                  Small Business Paperwork Relief Act of                concerning the 2009–10 migratory bird
                                           COMMISSION                                              2002, Public Law 107–198, see 44 U.S.C.               hunting regulations.
                                                                                                   3506(c)(4).
                                           47 CFR Part 73                                                                                                DATES: The meeting will be held January
                                                                                                      Provisions of the Regulatory                       29, 2009.
                                           [DA 08–2570; MB Docket No. 08–227; RM–                  Flexibility Act of 1980 do not apply to               ADDRESSES: The Service Regulations
                                           11493]                                                  this proceeding.                                      Committee will meet at the Embassy
                                           Radio Broadcasting Services;                               Members of the public should note                  Suites Hotel, Denver—International
                                           Batesville, TX                                          that from the time a Notice of Proposed               Airport, 7001 Yampa Street, Denver, CO
                                                                                                   Rulemaking is issued until the matter is              (303) 574–3000.
                                           AGENCY: Federal Communications                          no longer subject to Commission                       FOR FURTHER INFORMATION CONTACT:
                                           Commission.                                             consideration or court review, all ex                 Robert Blohm, Chief, Division of
                                           ACTION: Proposed rule.                                  parte contacts are prohibited in                      Migratory Bird Management, U.S. Fish
                                                                                                   Commission proceedings, such as this                  and Wildlife Service, Department of the
                                           SUMMARY: This document requests
                                                                                                   one, which involve channel allotments.                Interior, ms–4107–ARLSQ, 1849 C
                                           comments on a petition for rulemaking
                                                                                                   See 47 CFR 1.1204(b) for rules                        Street, NW., Washington, DC 20240,
                                           filed by Katherine Pyeatt, requesting the
                                                                                                   governing permissible ex parte contacts.              (703) 358–1714.
                                           allotment of Channel 250A at Batesville,
                                           Texas. Channel 250A can be allotted to                     For information regarding proper                   SUPPLEMENTARY INFORMATION: Under the
                                           Batesville consistent with the minimum                  filing procedures for comments, see 47                authority of the Migratory Bird Treaty
                                           distance separation requirements of the                 CFR 1.415 and 1.420.                                  Act (16 U.S.C. 703–712), the Service
                                           Commission’s Rules with the imposition                                                                        regulates the hunting of migratory game
                                           of a site restriction located 11.4                      List of Subjects in 47 CFR Part 73                    birds. We update the migratory game
                                           kilometers (7.1 miles) east of the                                                                            bird hunting regulations, located at 50
                                                                                                     Radio, Radio broadcasting.                          CFR part 20, annually. Through these
                                           community at reference coordinates 28–
                                           58–27 NL and 99–30–12 WL.                                 For the reasons discussed in the                    regulations, we establish the
                                                                                                   preamble, the Federal Communications                  frameworks, or outside limits, for season
                                           DATES: Comments must be filed on or
                                                                                                   Commission proposes to amend 47 CFR                   lengths, bag limits, and areas for
                                           before January 21, 2009, and reply
                                                                                                   part 73 as follows:                                   migratory game bird hunting. To help us
                                           comments on or before February 5,
                                                                                                                                                         in this process, we have
                                           2009.
                                                                                                   PART 73—RADIO BROADCAST                               administratively divided the nation into
                                           ADDRESSES:  Secretary, Federal                          SERVICES                                              four Flyways (Atlantic, Mississippi,
                                           Communications Commission, 445                                                                                Central, and Pacific), each of which has
                                           Twelfth Street, SW., Washington, DC                       1. The authority citation for part 73               a Flyway Council. Representatives from
                                           20554. In addition to filing comments                   continues to read as follows:                         the Service, the Service’s Migratory Bird
                                           with the FCC, interested parties should                                                                       Regulations Committee, and Flyway
pwalker on PROD1PC71 with PROPOSALS




                                           serve the petitioner as follows:                          Authority: 47 U.S.C. 154, 303, 334, 336.            Council Consultants will meet on
                                           Katherine Pyeatt, 2215 Cedar Springs                                                                          January 29, 2009, at 8:30 a.m. to identify
                                                                                                   § 73.202    [Amended]
                                           Rd. #1910, Dallas, Texas 75201.                                                                               preliminary issues concerning the 2009–
                                           FOR FURTHER INFORMATION CONTACT:                          2. Section 73.202(b), the Table of FM               10 migratory bird hunting regulations
                                           Rolanda F. Smith, Media Bureau, (202)                   Allotments under Texas, is amended by                 for discussion and review by the Flyway
                                           418–2180.                                               adding Batesville, Channel 250A.                      Councils at their March meetings.


                                      VerDate Aug<31>2005   16:09 Dec 16, 2008   Jkt 217001   PO 00000   Frm 00010   Fmt 4702   Sfmt 4702   E:\FR\FM\17DEP1.SGM   17DEP1
